CREDIT CARD AGREEMENT
AND DISCLOSURE
Variable Rate

United States Senate
Federal Credit Union
MEMBER/BORROWER(S) NAME AND ADDRESS

ACCOUNT/MEMBER NO.

DATE

John Sample
Jane Sample
123 Main Street
Anywhere, USA 00001

00000000

03/25/16

CREDIT LIMIT
$0

Interest Rates and Interest
Charges

 VISA Smart Rate

ANNUAL PERCENTAGE RATE
for Purchases

10.50

 VISA Smart Rewards

%

This APR will vary with the market based on the Prime Rate.

ANNUAL PERCENTAGE RATE
for Balance Transfers

10.50

%

This APR will vary with the market based on the Prime Rate.

ANNUAL PERCENTAGE RATE
for Cash Advances

10.50

%

This APR will vary with the market based on the Prime Rate.

Minimum Interest Charge

Paying Interest
For Credit Card Tips from
The Consumer Financial
Protection Bureau
FEES
Set-up And Maintenance Fees
Annual Fee
Document Copy Fee
Transaction Fees
Cash Advance & Balance
Transfers
Foreign Transactions
Penalty Fees Late
Payment
Returned Payment

None
Your due date is at least 25 days after the close of each billing cycle. We will not charge
you any interest on purchases if you pay your entire balance by the due date each
month. We will begin charging interest on cash advances and balance transfers on the
transaction date.
To learn more about factors to consider when applying for or using a credit card, visit the
website
of
the
Consumer
Financial
Protection
Bureau
at:
http://www.consumerfinance.gov/learnmore

None
$20.00 for each copy of a merchant draft.

None
1% of the transaction amount.

Up to $35.00 if your payment is received after the due date. Up
to $35.00 for each returned payment.

How We Will Calculate Your Balance: We use a method called “Average Daily Balance (including new purchases)”. See your account
agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Account agreement.
Periodic Rate:
%
The Purchase, Cash Advance and Balance Transfer daily periodic rate is
0.02877
Margin:

The Purchase, Cash Advance and Balance Transfer margin is

6.00

%

2010 ConmarSystems, Inc., Peachtree City, GA 30269 E-FORM 17041-6 Rev 12/12

Page 1 of 3

CREDIT CARD AGREEMENT AND DISCLOSURE (continued)
This Agreement will establish the terms and conditions of your credit card agreement with United States Senate Federal Credit Union. In this agreement, the
words "you" and "your" mean any person receiving and using the card and that by using the card for the first time "you" agree to all terms and conditions in
this agreement. "Card" means the VISA Smart Rate or VISA Smart Rewards credit card and any duplicates and renewals the Credit Union issues. "Account"
means your VISA Smart Rate or VISA Smart Rewards credit card account with the Credit Union. "Credit Union," "we," "us," and "our" mean United States
Senate Federal Credit Union. You must be a member of the Credit Union to apply for a credit card. Except to the extent that Federal Law is applicable, the
laws of the Commonweatlh of Virginia shall govern the validity, construction and enforcement of this Agreement and all matters arising out of the issuance
and use of the Card.
USING THE ACCOUNT: Upon your approval for an account, the Credit Union MONTHLY PAYMENTS: Each payment you make on the account will restore
will establish a line of credit for you. Notification of your limit will be made when your credit limit by the amount of the payment that is applied to the principal
the card is sent to you. You agree not to let your account balance exceed your amount of purchases and cash advances. At any time your total new balance
approved credit limit.
exceeds your credit limit, you must immediately pay the amount over your
RESPONSIBILITY: You promise to pay any and all charges incurred by you credit limit.
or by any person whom you authorize to use the Credit Card issued to you, A PAYMENT IS REQUIRED EACH MONTH: You must pay at least the
and any fees or charges incurred in the recovery of a credit card, retrieval of minimum payment shown on your statement by the date specified on your
transaction data, or collection of this account in accordance with the terms and monthly statement. You can repay any outstanding balance prior to maturity
conditions issued by VISA International, Inc., and in accordance with the in whole or in part at your option without penalty. Your monthly payment must
policies established by the Credit Union.
be made directly to the address shown on your statement. If available, you
Your obligation to pay the amount owed on your account continues until paid may have your minimum payment automatically deducted from your checking
in full even though an agreement, divorce decree or other court judgment to or savings account. Payments received after 9:00 PM (Eastern Time) each
which the Credit Union is not a party may direct someone else to pay the day will be considered received on the next business day.
account balance.
The minimum periodic payment required for VISA Smart Rate and VISA Smart
JOINT ACCOUNT: If more than one person applies for the card each is Rewards will be either (a) 2.25% of your total new balance, minimum of $15
individually responsible for all amounts owed on the account and is jointly and or (b) your total new balance if it is less than $15, plus (c) any portion of
severally responsible for all amounts owed. This means the Credit Union can minimum payments shown on prior statements which remain unpaid and any
enforce the Agreement against any of you individually or all of you together. other applicable charges. You will also be required to pay any amounts over
Each may obtain credit advances without the knowledge of the other and both your credit limit or past due amounts.
are obligated to repay all advances made to the account. You agree to notify VISA Smart Rate and VISA Smart Rewards payments will be applied first to
the Credit Union of any address change.
billed fees, then to any previously billed and unpaid Finance Charges on
USING THE CARD: You may use the card issued to you to make purchases purchases and cash advances, then to the principal balance of purchases in
from anyone who accepts VISA Credit Cards. You may also obtain cash the order they were posted to your account and then to the principal balance
advances from the Credit Union, from other financial institutions participating of cash advances. If two or more purchases were posted on the same day,
in the VISA program and from automated teller machines (ATM's) that provide your payment will be applied to the lowest amount first. However, in every
access to the VISA system. Your VISA Personal Identification Number (PIN) case, in the event you make a payment in excess of the required minimum
is needed to obtain cash advance from an ATM. You agree not to use the card periodic payment, the Credit Union will allocate the excess amount first to the
for any illegal transactions such as advances for gambling or wagering where balance with the highest annual percentage rate and any remaining portion to
the other balances in descending order based on applicable annual
these practices are in violation of the law.
percentage rate. You understand that any payment that delays the repayment
VARIABLE RATE: Your account is subject to a Variable Rate which is based of Your unpaid balance will increase Your Finance Charge and any payment
on the highest Prime Rate as published in the Money Rates Section of The that accelerates the reduction of Your unpaid balance will decrease Your
Wall Street Journal (“Index”) in effect on the last day of each calendar quarter Finance Charges.
plus our Margin. The Index plus the Margin equals the Interest Rate. Changes
in the Index will cause changes in the Interest Rate on the first day of the next CREDIT BALANCES: If there is a credit balance due you, you may request in
billing cycle following the change. Increases or decreases in the Interest Rate writing a full refund of this credit balance at our address shown in this
will result in like increases or decreases in the Finance Charge and will affect Agreement.
the amount of your regularly scheduled payments that you will be required to SECURITY: You grant us a security interest under the Uniform Commercial
make.
Code and under any common law rights the Credit Union may have in any
There is no limit on the amount by which the annual percentage rate can goods you purchase. If you give the Credit Union a specific pledge of shares
change during any change date other than the maximum and minimum Annual by signing a separate pledge of shares, your pledged shares will secure your
Percentage Rates. The maximum ANNUAL PERCENTAGE RATE that can account. You may not withdraw amounts that have been specifically pledged
to secure your account until the Credit Union agrees to release all or part of
%.
apply is 18.00
the pledged amount.
FINANCE CHARGES: The monthly periodic rate assessed on your account
Your Account is secured by all other shares you have in any
is based on an annual percentage rate corresponding to a daily periodic rate
individual or joint account with the Credit Union, except for shares in
and the type of account. A Finance Charge will be imposed on Credit
an Individual Retirement Account or in any other account that would
Purchases only if you elect not to pay the entire New Balance shown on your
lose special tax treatment under state or federal law if given as
monthly statement for the previous billing cycle within 25 days from the date
security. These other shares may be withdrawn unless you are in
of that statement. If you elect not to pay the entire new balance shown on your
default under this agreement. You authorize the Credit Union to apply
previous monthly statement within that 25 day period, a Finance Charge will
the balance in your individual or joint share accounts to pay any
be imposed on the unpaid average daily balance of such Credit Purchases
amounts due on your Account if you should default.
from the date of posting to your account during the current billing cycle, and
CROSS-COLLATERAL:
If you have other loans with us, or take out other
will continue to accrue until the date of the billing cycle preceding the date on
which the entire New Balance is paid in full or until the date of payment if more loans with us in the future, collateral securing those loans will also secure your
than 25 days from the closing date. Cash Advances are always subject to obligations under this Agreement. However, unless you expressly agree
a Finance Charge from the date they are posted to your account and are otherwise, no dwelling secures your obligation.
not subject to the 25-day grace period.
DEFAULT: You will be in default: (1) if you fail to make any minimum payment
Balance Subject to Finance Charges: The balances subject to finance or other required payment by the date that it is due, (2) if you break any
charge are the average daily transaction balances outstanding during the promise you make under this Agreement, (3) if you die, file for bankruptcy or
month (new and previous). The Average Daily Balance is determined by become insolvent, that is, unable to pay your obligations when they become
adding, after subtracting all payments, credits, and cash advances for the due, (4) if any attachment or garnishment proceedings are initiated against
billing period in which they were made, all the outstanding advance balances you or your property, (5) if you default on any other indebtedness to the Credit
and billed but unpaid finance charges for each calendar day of the billing Union, (6) if you make any false or misleading statement in any credit
period and then dividing the total by the number of days in that billing period. application or credit update, or (7) if something happens that the Credit Union
Purchases posted to your Account during the billing period are included only believes may substantially reduce your ability to repay what you owe.
if the “New Balance” on your previously assessed bill was not paid in full by When you are in default, the Credit Union has the right to demand immediate
the grace period.
payment of your full account balance without notice. If immediate payment is
OTHER CHARGES: a) $10 for each replacement Card, b) $20 for each VISA demanded, you will continue to pay Finance Charges, at the periodic rate
merchant draft that you request; and c) Up to $35 for each returned payment. charged before default, until what you owe has been paid, and any shares that
The fees and charges will be handled by the Credit Union as an adjustment to were given as security will be applied towards what you owe.
the account balance and will not be charged a Finance Charge.
If collections efforts are required by the Credit Union, you agree to pay all costs
LATE CHARGE: If your payment is received after the payment due date, you and expenses incurred in the collection of any sum due, and in addition, if the
holder hereof, after default, shall place this note in the hands of an attorney or
will be charged up to $35.
collection agency, for collection, to pay reasonable attorney’s fees, interest

and fines due on this note at the time of the employment of such attorney or or 1 (800) 374-2758, Monday thru Friday, 8:30am to 4:00 pm Eastern Time.
collection agency.
After hours, call 1 (800) 682-6075. If overseas, call collect (206) 352-4950.
CREDIT INFORMATION: You understand that the Credit Union will review MERCHANT DISPUTES: The Credit Union is not responsible for the refusal
your accounts periodically, and you hereby give your permission to, and of any merchant or financial institution to honor the card. The Credit Union is
authorize the Credit Union to investigate and reassess your creditworthiness. subject to claims and defenses (other than tort claim) arising out of goods or
You authorize the Credit Union to obtain information concerning your credit services you purchase with the card if you have made a good faith attempt but
history from all available sources now and in the future. You authorize the have been unable to obtain satisfaction from the merchant or service provider,
Credit Union to disclose information regarding your account to credit bureaus and (a) your purchase was made in response to an advertisement the Credit
and creditors who inquire about your credit standing.
Union sent or participated in sending to you; or (b) your purchases cost more
LIABILITY FOR UNAUTHORIZED USE: You may be liable for the than $50.00 and was made in your state or within 100 miles of your home.
unauthorized use of the card. You will not be liable for unauthorized use that CHANGING OR TERMINATING YOUR ACCOUNT: You agree that the Credit
occurs after the issuer is notified, orally or in writing at the address shown in Union may change the terms of this Agreement from time to time after giving
this Agreement. If your card is lost or stolen you must report it to us you any advance notice required by law at your last known address. To the
immediately.
extent the law permits, and indicated in the notice to you, the change will apply
LOSS OR THEFT OF CARD: If your Card, PIN or Account Number are lost to your existing account balance as well as to future transactions. Your use of
or stolen, you should immediately call (202) 224-2967 (within DC Metro Area) the card after receiving notice or a change will also indicate your agreement
to the change.

Page 2 of 3

2010 ConmarSystems, Inc., Peachtree City, GA 30269 E-FORM 17041-6 Rev 12/12

CREDIT CARD AGREEMENT AND DISCLOSURE (continued)
You may request an increase in your credit limit either by written application or
by phone. The Credit Union has the right to reduce or terminate your credit limit
at any time. You understand and acknowledge that such action shall not affect
your obligation to pay any outstanding balance PLUS any finance and other
charges you owe under this Agreement. Accounts that have been inactive for
one (1) year may be subject to termination at the renewal date. The card(s)
you receive remain the property of the Credit Union and you must recover and
surrender to the Credit Union ALL cards upon request or upon termination of
this Agreement whether by you or the Credit Union.
FOREIGN TRANSACTIONS: When you use your Card at a merchant that
settles in currency other than US dollars, the charge will be converted into the
US dollar amount. The currency conversion rate used to determine the
transaction amount in US dollars is either a rate selected by VISA from the
range of rates available in wholesale currency markets for the applicable
central processing date, which rate may vary from the rate VISA itself receives,
or the government-mandated rate in effect for the applicable central processing
date, plus 1 percent of the transaction amount, which may be billed separately
on your account or included in the transaction amount. This 1% adjustment is
made for all international transactions regardless of whether there is a currency
conversion associated with the transaction. The conversion rate in effect on
the processing date may differ from the rate in effect on the transaction date or
posting date.
EFFECT OF AGREEMENT/WAIVER: This Agreement is the contract which
applies to all transactions on your account even though the sales, cash
advances, credit or other slips you sign or receive may contain different terms.
The Credit Union can delay enforcing any of its rights any number of times
without losing them. Each provision of this agreement must be considered as
part of the total agreement and cannot in any way be severed from it. However,
you also agree that should any part of this agreement be found invalid, it will in
no way affect the remainder of the agreement.
STATEMENT AND NOTICES: You will receive a statement each month
showing transactions on your account. You are responsible for your minimum
monthly payment even in the event your statement is late or returned to the
Credit Union. Statements and notices will be mailed to you at the most recent
address you have given the Credit Union. Notice to any one of you will be
considered notice to all.
PERSONAL IDENTIFICATION NUMBER (PIN): We will furnish you with a
Personal Identification Number (PIN). You agree to keep the PIN secret. You
also agree you won't write the PIN on the Card or anything you keep with the
card. Your use of the PIN and Card in getting a cash advance or making a
purchase is agreed to constitute your signature for purposes of such
transaction.
USE OF CARD. You may use your Card to conduct any transaction or obtain
any Credit Union service permitted by law. You agree that the use of the Card
to obtain a service or effect a transaction that is illegal under the law of any
jurisdiction where originated, affected or accomplished will be a default and
breach of this agreement. We may terminate the access to the service or
withdraw the right to use the Card and/or demand the return of all Cards or

other access devices issued to you. If illegal use of your Card occurs, you waive
the right to sue Us, and agree to indemnify and hold Us harmless from any
suits or other legal action or liability which may be asserted, directly or
indirectly, against Us arising out of, or resulting from, the illegal use of the Card.
GOVERNING LAW: Except to the extent that Federal Law is applicable, the
laws of the Commonwealth of Virginia shall govern the validity, construction
and enforcement of this Agreement and all matters arising out of the issuance
and use of the Card.
Your Billing Rights: Keep This Document For
Future Use This notice tells you about your rights
and our responsibilities under the Fair Credit
Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
United States Senate Federal Credit Union
National Capitol Station
P.O. Box 77920
Washington, DC 20013-8920
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe
what you believe is wrong and why you believe it is a mistake.

You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if
you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing [or electronically]. You may
call us, but if you do we are not required to investigate any potential errors and
you may have to pay the amount in question.
What Will Happen After We Receive Your
Letter When we receive your letter, we must
do two things:
1. Within 30 days of receiving your letter, we must tell you that we received
your letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or
explain why we believe the bill was correct.
While we investigate whether or not there has been an error:

• We cannot try to collect the amount in question, or report you as
delinquent on that amount.
• The charge in question may remain on your statement, and we may
continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible
for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or
any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount
in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may
then report you as delinquent if you do not pay the amount we think you
owe.
If you receive our explanation but still believe your bill is wrong, you must write
to us within 10 days telling us that you still refuse to pay. If you do so, we cannot
report you as delinquent without also reporting that you are questioning your
bill.
We must tell you the name of anyone to whom we reported you as delinquent,
and we must let those organizations know when the matter has been settled
between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of
the amount you question even if your bill is correct.
Your Rights if You Are Dissatisfied With Your Credit Card Purchases

If you are dissatisfied with the goods or services that you have purchased with
your credit card, and you have tried in good faith to correct the problem with
the merchant, you may have the right not to pay the remaining amount due on
the purchase. To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles
of your current mailing address, and the purchase price must have been
more than $50. (Note: Neither of these are necessary if your purchase was
based on an advertisement we mailed to you, or if we own the company that
sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with
cash advances from an ATM or with a check that accesses your credit card
account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase,
contact us in writing at:
United States Senate Federal Credit Union
National Capitol Station
P.O. Box 77920
Washington, DC 20013-8920
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not pay,
we may report you as delinquent.

SIGNATURES
By signing below you agree to be bound by the Terms and Conditions of this Agreement. You acknowledge receiving a copy and reading the
Credit Card Agreement and Disclosure. You understand that this Agreement grants the Credit Union a Security Interest in all individual and
joint accounts you have with the Credit Union, now and in the future with the exception of those accounts that would have an adverse tax
consequence if pledged as collateral.

X
BORROWER SIGNATURE

X
DATE

X
WITNESS

CO-BORROWER SIGNATURE

DATE

X
DATE

2010 ConmarSystems, Inc., Peachtree City, GA 30269 E-FORM 17041-6 Rev 12/12

WITNESS

DATE

Page 3 of 3

